 Report No. D-2011-052          March 23, 2011




American Recovery and Reinvestment Act-DoD Data
  Quality Review Processes for the Period Ending
 December 31, 2009, Were Not Fully Implemented
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms
DPAP                          Defense Procurement and Acquisition Policy
OMB                           Office of Management and Budget
OUSD                          Office of the Under Secretary of Defense
OUSD(C)                       Office of the Under Secretary of Defense (Comptroller)
RATB                          Recovery Accountability and Transparency Board
TAS                           Treasury Account Symbol
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON , VIRGIN IA 22202-4704

                                                                            March 23, 20 II

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANC IAL OFFICER

SUBJECT: American Recovery and Reinvestment Act-DoD Data Quality Review
         Processes for the Period Ending December 3 1, 2009, Were Not Fully
         Implemented (Report No . D-20 11-052)

We are providing thi s report for your information and use. Adequate data quality rev iews
are essenti al to provide transparency and accountability of expenditures so that the
American public wi ll know how, when, and where DoD American Recovery and
Reinvestment Act fund s are spent. 000 did not have controls in place to ensure that
recipient data was accurate and significant errors were identified and corrected . This
report discusses 000 control structure over data quality reviews performed for the period
ending December 3 1, 2009. We considered management comments on a draft of this
report when preparing the final report.

The Office of the Under Secretary of Defense (Comptroller) for Resource Issues
comments conformed to the requirements of DoD Directive 765 0.3 and were responsive.
Therefore, additional comments are not required.

We appreciate the co urtesies extended to the staff. Please direct questions to me at
(703) 601-5868 (DSN 329-5868).




                                 Patricia A. Marsh, CPA
                               Assistant Inspector General
                          Financial Management and Reporting
Report No. D-2011-052 (D2009-D000FH-0167.003)                               March 23, 2011

               Results in Brief: American Recovery and
               Reinvestment Act-DoD Data Quality Review
               Processes for the Period Ending
               December 31, 2009, Were Not
               Fully Implemented

What We Did                                             What We Recommend
We initiated this audit at the request of the           We recommend that the Deputy Under
Recovery Accountability and Transparency                Secretary of Defense (Resource Issues):
Board. Our objective was to determine whether
DoD fully implemented an effective internal             •   establish a quality assurance plan, including
control structure over recipient reporting of               monitoring procedures, to help ensure that
American Recovery and Reinvestment Act                      recipient data are reported completely,
funds for the period ending December 31, 2009.              accurately, and timely as stated in OMB
DoD did not have adequate controls in place to              Memorandum M-10-08;
ensure that recipient data was accurate and             •   establish policies and procedures for
significant errors were identified and corrected.           personnel performing quality control
                                                            reviews and monitoring contracting and
What We Found                                               fiscal officer data review processes as
DoD did not fully implement an internal control             required by OMB Memorandum M-10-08;
structure over American Recovery and                        and
Reinvestment Act recipient reported data. This          •   require periodic assessments of data quality
occurred because:                                           review processes to evaluate, on an on-going
                                                            basis, recipient efforts to meet Recovery Act
   •   DoD did not establish a plan for                     and OMB reporting requirements as stated
       performing data quality reviews that                 in OMB Memorandum M-10-08.
       would identify material omissions and
       significant errors, and                          Management Comments and
   •   DoD did not have procedures in place to          Our Response
       monitor contracting and fiscal officer           The Director, Resource Issues, agreed with all
       data review processes as prescribed by           recommendations and stated that DoD will
       the Office of Management and Budget              formulate a quality assurance and oversight plan
       (OMB) guidance.                                  that will document and establish policies and
                                                        procedures for performing quality control
As a result, 1,943 recipient reports with a total       reviews and for monitoring data. On a quarterly
award amount of $1.7 billion contained                  basis, DoD will also assess its data quality
2,914 discrepancies on key award information.           review process. The Director stated that all
In addition, DoD did not provide transparency           actions will be completed by March 15, 2011.
and accountability of expenditures so that the          No further comments are required. Please see
public will know how, when, and where DoD               the recommendations table on the back of this
Recovery Act funds were spent.                          page.


                                                    i
Report No. D-2011-052 (D2009-D000FH-0167.003)              March 23, 2011

Recommendations Table

        Management                Recommendations            No Additional
                                 Requiring Comment       Comments Required
Deputy Under Secretary of                            1, 2, 3
Defense (Resource Issues)




                                     ii
Table of Contents

Introduction                                                                    1

      Audit Objective                                                           1
      Background on Recovery Act                                                1
      Internal Controls Were Not Fully Implemented for Data Quality Review
              Processes                                                         5

Finding. Recovery Act Data Quality Review Processes Need Improvement            6

      DoD Needs a Data Quality Plan                                             6
      Data Reported by DoD Recipients Contained Discrepancies                   7
      Recipient Reports Contained Significant Errors                            8
      DoD Did Not Establish Procedures for Monitoring Contracting and Fiscal
             Officer Data Review Processes                                     10
      Recommendations, Management Comments, and Our Response                   12

Appendices

      A. Scope and Methodology of Audit                                        14
              Prior Coverage of Recovery Act Data Review Process               15
      B. Key Personnel Involved in the Oversight of DoD Recipient Reporting    16
      C. Discrepancies Between Data from DoD Systems and Recipient Reported
              Data at http://www.federalreporting.gov                          17

Management Comments

      Deputy Under Secretary of Defense (Resource Issues)                      18
Introduction
Audit Objective
Our objective was to determine whether DoD fully implemented an internal control
structure that was effective in ensuring recipient data was reported completely,
accurately, and in a timely manner; and that any material omissions and significant
reporting errors were identified and corrected for the period ending December 31, 2009. 1
We performed this audit at the request of the Recovery Accountability and Transparency
Board (RATB). Our audit focused on the internal controls, policies, and procedures
defined in Office of Management and Budget (OMB) Memorandum M-10-08, “Updated
Guidance on the American Recovery and Reinvestment Act – Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates,” December 18, 2009. OMB
Memorandum M-10-08 required agencies disbursing American Recovery and
Reinvestment Act (Recovery Act) funds to implement a limited data quality review
process to identify material omissions and significant errors, and to notify award
recipients of the need to make complete, accurate, and timely adjustments. See
Appendix A for a discussion of our scope and methodology.

Background on Recovery Act
Congress passed Public Law 111-5, American Recovery and Reinvestment Act of 2009
(Recovery Act), February 17, 2009, providing supplemental appropriations to:

    •   preserve and create jobs;
    •   promote economic recovery;
    •   assist those most affected by the recession;
    •   provide investments to increase economic efficiency through technological
        advances in science and health; and,
    •   invest in transportation, environmental protection, and other infrastructure.

Congress appropriated $7.4 billion in Recovery Act funds to DoD for the following
programs: Energy Conservation Investment; Facilities Sustainment, Restoration, and
Modernization; Homeowners Assistance Program; Military Construction; and Near Term
Energy-Efficient Technologies. The DoD agencies, such as the U.S. Army Corps of
Engineers-Military Programs and the National Guard Bureau, execute the funds through
contracts and grants and cooperative agreements.

The Recovery Act is an unprecedented effort to ensure the responsible distribution of
funds for the Act’s purposes and to provide transparency and accountability of



1
  A report will be issued by the DoD Office of the Inspector General for the audit of the U.S. Army Corps
of Engineers, Civil Works, Data Quality Review Processes for the Period Ending December 31, 2009. The
report will include a review of the $4.6 billion in Recovery Act funds that Congress appropriated to the
U.S. Army Corps of Engineers, Civil Works.


                                                    1
expenditures so that the public would know how, when, and where tax dollars are being
spent. As a result, the RATB was created with the responsibility for coordinating and
conducting oversight of Federal spending under the Recovery Act to prevent waste,
fraud, and abuse.

Reporting Requirements for Recovery Act
The following guidance specifies reporting and internal control review requirements for
Recovery Act funds recipients.

Public Law 111-5, American Recovery and Reinvestment Act of
2009 (Recovery Act), February 17, 2009
Section 1512 of the Recovery Act requires recipients to report on the use of Recovery
Act funds. The Recovery Act defines a recipient as any entity that receives Recovery Act
funds directly from the Federal Government through contracts, grants, or loans, and
includes States that receive funds. The prime recipients of contracts, grants, or loans are
required, within 10 days after the end of each calendar quarter, to report:

    •    the total amount of funds received, expended, or obligated,
    •    a description of projects or activities,
    •    estimated number of jobs created or retained, and
    •    detailed information on any contracts or grants awarded to sub-recipients. 2

To collect the information required by section 1512, the OMB collaborated with the
RATB to establish a nationwide data collection system at
http://www.federalreporting.gov. In addition, the RATB created a Web site to make
information reported by recipients available to the public at http://www.recovery.gov.
The report for the first reporting period ending September 30, 2009, was due October 10,
2009.

OMB Memorandum (M-09-21), “Implementing Guidance for the
Reports on Use of Funds Pursuant to the American Recovery
and Reinvestment Act of 2009,” June 22, 2009
OMB Memorandum (M-09-21) applies to all forms of Recovery Act assistance except for
Federal contracts and loan guarantees. The memorandum defines key activities,
milestones, and the timeline for recipients to file reports and for Federal agencies to
review them. The memorandum requires recipients of Recovery Act funds to




2
  The prime recipients of contracts, grants, or loans are responsible for reporting the detailed information
required by the Federal Funding Accountability and Transparency Act of 2006 on any subcontract or
subgrant they award that exceeds $25,000. Aggregate reporting of awards below $25,000 or to individuals
is permitted. The prime recipient can delegate this reporting responsibility to the subrecipient of the
contract or grant.


                                                     2
register at http://www.federalreporting.gov 3 before submitting their reports. Recipients
are required to report on the use of Recovery Act funds no later than the 10th day after the
end of each calendar quarter. As per the memorandum, the reporting and review period
is 30 days. See the figure for a detailed timeline.

                              Figure. Recipient Reporting Timeline




Source: OMB M-09-21

The memorandum requires Federal agencies to develop internal policies and procedures
for reviewing reported data and to perform a limited data quality review to identify
material omissions or significant reporting errors, and to notify the recipients of the need
to make appropriate and timely changes. Material omissions are defined as instances
where the recipient does not report the required data or reported information is not
responsive to the data requests, resulting in significant risk that the public is not fully
informed about the status of a Recovery Act project or activity. Significant reporting
errors are defined as those instances where the recipient does not report required data
accurately and such erroneous reporting results in significant risk that the public would
be misled or confused by the recipient report.

OMB Memorandum (M-10-08), “Updated Guidance on the
American Recovery and Reinvestment Act-Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates,”
December 18, 2009
OMB M-10-08 requires Federal agencies that award Recovery Act funds to establish data
quality plans. The plans articulate data quality review processes that, at a minimum,
require Federal agencies to:




3
  The Web site, http://www.federalreporting.gov, is a central Government-wide data collection system used
by Federal agencies and recipients of the Recovery Act funds. Federal agencies, prime recipients, and sub-
recipients are required to submit data on a quarterly basis for contracts, grants, and loans awarded under the
Recovery Act.


                                                      3
   •   focus on identifying material omissions and significant reporting errors;
   •   assess the highest priority corrections necessary to reduce the likelihood of
       significant error;
   •   assess other corrections that would improve recipient data quality;
   •   encourage recipients to make corrections that ensure accurate data reporting; and
   •   evaluate, on an ongoing basis, recipient and sub-recipient efforts to meet
       Recovery Act and OMB reporting requirements.

In addition, OMB M-10-08 directs Federal agencies to provide key award information to
recipients of Federal assistance and contract awards under the Recovery Act in order to
improve data quality and reduce inaccuracies in recipient reporting.

OMB Circular A-123, “Management’s Responsibility for Internal
Control,” December 21, 2004
OMB Circular A-123 states that management is responsible for establishing and
maintaining internal controls to achieve the objectives of effective and efficient
operations and compliance with applicable laws and regulations. Management must
develop and implement appropriate internal controls and assess their adequacy over
programs and operations. In addition, management must consistently apply internal
control standards and continuously assess the effectiveness of internal controls.

In addition to identifying risks, the circular requires management to develop and maintain
effective internal controls that:

   •   clearly define and delegate authority and responsibility and establish a suitable
       hierarchy for reporting within the organizational structure;
   •   establish policies and procedures to ensure objectives are met;
   •   communicate relevant, reliable, and timely information to personnel at all levels;
       and
   •   monitor the effectiveness of internal controls through periodic reviews,
       reconciliations, or comparisons of data as part of the regular assigned duties of
       personnel.

Defense Procurement and Acquisition Policy Memorandum,
“Guidance on Reviewing Contractor Reports Required by the
American Recovery and Reinvestment Act of 2009,”
December 16, 2009
The Director, Defense Procurement and Acquisition Policy (DPAP), issued the
memorandum to provide DoD contracting officers with guidance and procedures for the
recipient reporting process applicable to Recovery Act contract awards. The
memorandum states that the scope of the contractor report reviews is to identify material
omissions and significant errors in recipient reports. Further, the memorandum states that
contracting officers are responsible for ensuring that the reviews are timely, accurate, and
complete. In addition, the memorandum provides contracting officers with procedures
specific to the review process, including the review of jobs reported by the contractor.


                                             4
However, according to the memorandum, the contracting officer is not expected to
validate contractor data for which the contracting officer would not normally have
supporting information; the contracting officer is required to identify and promptly
communicate to the contractor obvious material omissions and significant errors for
corrective action.

Key Personnel Responsible For Matters Related to DoD
Recovery Act Funds
DoD identified the roles and responsibilities of Recovery Act key personnel involved in
the quarterly review of recipient reports. DoD identified the Principal Deputy Under
Secretary of Defense (Comptroller) as the senior accountable official for all matters
related to DoD Recovery Act funds. In addition, the Office of the Under Secretary of
Defense (Resource Issues) serves as the overall DoD point of contact for Recovery Act
matters. See Appendix B for a list of all key personnel involved in the recipient reporting
process.

Internal Controls Were Not Fully Implemented for Data
Quality Review Processes
We determined that an internal control weakness in the DoD recipient reporting process
existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” July 29, 2010. DoD did not have a fully implemented internal
control structure over Recovery Act recipient reported data. Specifically, DoD did not
have adequate controls to ensure that recipient data was accurate and significant errors
were identified and corrected. In addition, DoD did not have procedures in place to
monitor contracting and fiscal officer data review processes as prescribed by OMB
guidance. We will provide a copy of the report to the senior official responsible for
internal controls in the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer.




                                            5
Finding. Recovery Act Data Quality Review
Processes Need Improvement
DoD did not fully implement an internal control structure over Recovery Act recipient
reported data. Specifically, DoD did not have adequate controls to ensure that recipient
data was accurate and significant errors were identified and corrected. The lack of a fully
implemented internal control structure occurred because DoD did not establish a plan for
performing data quality reviews that would identify material omissions and significant
reporting errors. In addition, DoD did not have procedures in place to monitor
contracting and fiscal officer data review processes as prescribed by OMB guidance. As
a result, 1,943 recipient reports, with a total award amount of $1.7 billion, contained
2,914 discrepancies on key award information. In addition, the reported data did not
provide transparency and accountability of expenditures so that the American public will
know how, when, and where DoD Recovery Act funds were spent.

DoD Needs a Data Quality Plan
                                 DoD did not establish a data quality plan for performing
   OMB M-10-08 requires
                                 data quality reviews that would identify material
    that Federal agencies
                                 omissions and significant reporting errors. OMB M-10-
    establish data quality
                                 08 requires that Federal agencies establish data quality
   plans that outline their
                                 plans that outline their Recovery Act data review
  Recovery Act data review
                                 processes. The guidance requires that the processes focus
          processes.
                                 on identifying material omissions and significant
reporting errors within recipient reports. However, DoD controls did not include a data
quality plan that would identify discrepancies and address major concerns for significant
reporting errors.

In response to our request for a written data quality plan, DoD stated the following:

               ...contracting officers maintain the function for reviews of the reports,
               as stated within the 16 Dec 2009 DPAP memo. The RATB has
               established multiple control processes that the DoD follows in order to
               ensure quality control of recipient reporting. The RATB processes
               include: control number, master list, mis-match list, orphan list, RATB
               Observations, and non-compliance list. These reports and tools
               facilitate the Department's monitoring of the recipient reporting and the
               review process. And your office, at the request of the RATB, provides
               a quarterly independent review of recipient reporting. In light of these
               control procedures established by the RATB, the DoD has not issued a
               separate control or QA [Quality Assurance] plan.

The DPAP Memorandum provided guidance on the review of contract recipient reports
and delegated the review responsibilities to the contracting officers; however, the
memorandum did not assign responsibilities for monitoring the contracting officers’ data
review processes. In addition, the memorandum was limited to the discussion of the
review of contractor reports.



                                                  6
Data Reported by DoD Recipients Contained
Discrepancies
DoD controls did not ensure that contracting and fiscal officers performed adequate data
quality reviews to identify discrepancies in recipient reported data.
OMB M-10-08 identifies the following as key award information for recipient reporting:

   •   activity code
   •   award amount
   •   award date
   •   award number
   •   award type
   •   awarding agency code
   •   Catalogue of Federal Domestic Assistance Number (for grants and loans)
   •   funding agency code
   •   Government contracting office code
   •   order number for federally awarded contracts
   •   program source code (Treasury account symbol)

The memorandum requires that recipients accurately report key award information.
    However, recipients of DoD         However, recipients of DoD Recovery Act funds
    Recovery Act funds reported        reported data containing discrepancies on key
   data containing discrepancies       award information. For 2,905 contract and grant
     on key award information.         recipient reports, we identified discrepancies in the
                                       key award information by comparing records in
DoD internal systems to recipient reports at http://www.federalreporting.gov. Of the
2,905 recipient reports, 1,943 reports, with a total award amount of $1.7 billion,
contained 2,914 discrepancies. Of the 1,943 recipient reports with discrepancies,
1,895 related to contract recipient reports.

For the 1,895 contract recipient reports, we identified 223 reports with a total award
amount of $310.5 million for which the information recorded in the Funding Agency
Code data field in DoD internal systems did not match the information at
http://www.federalreporting.gov. The Funding Agency Code identifies the agency that
received Recovery Act funds. That agency is responsible for funding and distributing the
funds to recipients.

For example, Department of the Army contract award recipients reported Funding
Agency Codes in http://www.federalreporting.gov such as 9700, 5700, or 96CE.
However, these codes did not match the codes for the corresponding records in DoD
internal systems. The DoD Funding Agency Code for Department of the Army is 2100.
Because recipients did not correctly report the Funding Agency Code, reports may not
accurately show the Recovery Act funds distributed by DoD Components.




                                              7
register at http://www.federalreporting.gov 3 before submitting their reports. Recipients
are required to report on the use of Recovery Act funds no later than the 10th day after the
end of each calendar quarter. As per the memorandum, the reporting and review period
is 30 days. See the figure for a detailed timeline.

                              Figure. Recipient Reporting Timeline




Source: OMB M-09-21

The memorandum requires Federal agencies to develop internal policies and procedures
for reviewing reported data and to perform a limited data quality review to identify
material omissions or significant reporting errors, and to notify the recipients of the need
to make appropriate and timely changes. Material omissions are defined as instances
where the recipient does not report the required data or reported information is not
responsive to the data requests, resulting in significant risk that the public is not fully
informed about the status of a Recovery Act project or activity. Significant reporting
errors are defined as those instances where the recipient does not report required data
accurately and such erroneous reporting results in significant risk that the public would
be misled or confused by the recipient report.

OMB Memorandum (M-10-08), “Updated Guidance on the
American Recovery and Reinvestment Act-Data Quality,
Non-Reporting Recipients, and Reporting of Job Estimates,”
December 18, 2009
OMB M-10-08 requires Federal agencies that award Recovery Act funds to establish data
quality plans. The plans articulate data quality review processes that, at a minimum,
require Federal agencies to:




3
  The Web site, http://www.federalreporting.gov, is a central Government-wide data collection system used
by Federal agencies and recipients of the Recovery Act funds. Federal agencies, prime recipients, and sub-
recipients are required to submit data on a quarterly basis for contracts, grants, and loans awarded under the
Recovery Act.


                                                      3
Data Reported by DoD Recipients Contained
Discrepancies
DoD controls did not ensure that contracting and fiscal officers performed adequate data
quality reviews to identify discrepancies in recipient reported data.
OMB M-10-08 identifies the following as key award information for recipient reporting:

   •   activity code
   •   award amount
   •   award date
   •   award number
   •   award type
   •   awarding agency code
   •   Catalogue of Federal Domestic Assistance Number (for grants and loans)
   •   funding agency code
   •   Government contracting office code
   •   order number for federally awarded contracts
   •   program source code (Treasury account symbol)

The memorandum requires that recipients accurately report key award information.
    However, recipients of DoD         However, recipients of DoD Recovery Act funds
    Recovery Act funds reported        reported data containing discrepancies on key
   data containing discrepancies       award information. For 2,905 contract and grant
     on key award information.         recipient reports, we identified discrepancies in the
                                       key award information by comparing records in
DoD internal systems to recipient reports at http://www.federalreporting.gov. Of the
2,905 recipient reports, 1,943 reports, with a total award amount of $1.7 billion,
contained 2,914 discrepancies. Of the 1,943 recipient reports with discrepancies,
1,895 related to contract recipient reports.

For the 1,895 contract recipient reports, we identified 223 reports with a total award
amount of $310.5 million for which the information recorded in the Funding Agency
Code data field in DoD internal systems did not match the information at
http://www.federalreporting.gov. The Funding Agency Code identifies the agency that
received Recovery Act funds. That agency is responsible for funding and distributing the
funds to recipients.

For example, Department of the Army contract award recipients reported Funding
Agency Codes in http://www.federalreporting.gov such as 9700, 5700, or 96CE.
However, these codes did not match the codes for the corresponding records in DoD
internal systems. The DoD Funding Agency Code for Department of the Army is 2100.
Because recipients did not correctly report the Funding Agency Code, reports may not
accurately show the Recovery Act funds distributed by DoD Components.




                                              7
In addition, we identified 301 contract recipient reports 4 with a total award amount of
$272.8 million at http://www.federalreporting.gov for which the information reported in
the Treasury Account Symbol (TAS) data field did not match the information in DoD
internal systems. The TAS identifies the DoD military department that received
Recovery Act appropriated funds. Recipients of appropriated funds are required to cite
the correct TAS for payment processing. For example, the records from the Department
of the Air Force internal system contained TAS 57-3404 (Air Force TAS for Operations
and Maintenance-Recovery Act). However, at http://www.federalreporting.gov,
recipients reported the TAS as 57-3307 (Air Force Military Construction-Recovery Act)
or 14-1112, which is a TAS for another Federal agency.

Because recipients did not use the correct TAS, there is increased risk that the funds may
be misrepresented or charged to another Federal agency. Furthermore, information
reported at http://www.federalreporting.gov may not accurately show total expended
Recovery Act funds by military department. For a complete list of discrepancies we
identified on all key award information, see Appendix C.

Recipient Reports Contained Significant Errors
OMB developed Memorandum M-10-08 to improve the quality of reported data under
the Recovery Act. Federal agencies are to develop data quality plans that focus on
significant reporting errors. The memorandum points out the following data fields that
are of major concern for significant errors:

    •   Federal amount of the award,
    •   number of jobs retained or created,
    •   Federal award number, and
    •   recipient name.

From the list of data fields that OMB considers a major concern for significant errors, we
identified discrepancies in DoD internal systems and at http://www.federalreporting.gov
in the “Federal amount of the award” and “Number of jobs retained or created” data
fields.

Federal Amount of the Award. For 1,895 contract reports reviewed with discrepancies,
345 contained discrepancies in the “Federal amount of the award” data field. Of the 345
                            discrepancies, 81 percent were greater than or equal to
         Of the 345         $1,000. Additionally, we reviewed 48 grant and cooperative
     discrepancies, 81      agreement reports that contained discrepancies. Of these
   percent were greater     48 reports, 22 had discrepancies in the “Federal amount of
      than or equal to      the award” data field. We found that 86 percent of the grant
          $1,000.           and cooperative agreement reports had discrepancies greater
                            than or equal to $1,000.


4
 We found a total of 302 reports with discrepancies in the Treasury Account Symbol data field. However,
one of the reports identified in our analysis pertained to grants.


                                                   8
In addition, we identified 301 contract recipient reports 4 with a total award amount of
$272.8 million at http://www.federalreporting.gov for which the information reported in
the Treasury Account Symbol (TAS) data field did not match the information in DoD
internal systems. The TAS identifies the DoD military department that received
Recovery Act appropriated funds. Recipients of appropriated funds are required to cite
the correct TAS for payment processing. For example, the records from the Department
of the Air Force internal system contained TAS 57-3404 (Air Force TAS for Operations
and Maintenance-Recovery Act). However, at http://www.federalreporting.gov,
recipients reported the TAS as 57-3307 (Air Force Military Construction-Recovery Act)
or 14-1112, which is a TAS for another Federal agency.

Because recipients did not use the correct TAS, there is increased risk that the funds may
be misrepresented or charged to another Federal agency. Furthermore, information
reported at http://www.federalreporting.gov may not accurately show total expended
Recovery Act funds by military department. For a complete list of discrepancies we
identified on all key award information, see Appendix C.

Recipient Reports Contained Significant Errors
OMB developed Memorandum M-10-08 to improve the quality of reported data under
the Recovery Act. Federal agencies are to develop data quality plans that focus on
significant reporting errors. The memorandum points out the following data fields that
are of major concern for significant errors:

    •   Federal amount of the award,
    •   number of jobs retained or created,
    •   Federal award number, and
    •   recipient name.

From the list of data fields that OMB considers a major concern for significant errors, we
identified discrepancies in DoD internal systems and at http://www.federalreporting.gov
in the “Federal amount of the award” and “Number of jobs retained or created” data
fields.

Federal Amount of the Award. For 1,895 contract reports reviewed with discrepancies,
345 contained discrepancies in the “Federal amount of the award” data field. Of the 345
                            discrepancies, 81 percent were greater than or equal to
         Of the 345         $1,000. Additionally, we reviewed 48 grant and cooperative
     discrepancies, 81      agreement reports that contained discrepancies. Of these
   percent were greater     48 reports, 22 had discrepancies in the “Federal amount of
      than or equal to      the award” data field. We found that 86 percent of the grant
          $1,000.           and cooperative agreement reports had discrepancies greater
                            than or equal to $1,000.


4
 We found a total of 302 reports with discrepancies in the Treasury Account Symbol data field. However,
one of the reports identified in our analysis pertained to grants.


                                                   8
One recipient reported the “Federal amount of the award” as $3.2 million at
http://www.federalreporting.gov, but DoD recorded the award amount for the same
recipient as $474,000 in its internal system. In another instance, a recipient reported the
“Federal amount of the award” as $6.5 million at http://www.federalreporting.gov, while
DoD recorded the award amount for the same recipient as $12.1 million. See the table
for a summary of the discrepancies found for the “Federal amount of the award” data
field.

          Table. Discrepancies in the Federal Amount of the Award
                                                   Grant and Cooperative
                    Contract Reports                 Agreement Reports
                  All            Award              All           Award
            Reports with        Amount         Reports with      Amount
Component Discrepancies Discrepancies          Discrepancies   Discrepancies
Army              602               97              44              21
                      5
Air Force       1,293              248                4              1
 Total           1,895             345              48              22

Number of Jobs Retained or Created. We also identified discrepancies in the “Number
of jobs retained or created” data field. For contract recipient reports, we identified three
reports for which the contract award date was after December 31, 2009, but recipients
included those jobs retained or created in the December 31, 2009, reporting period. For
example, two recipient reports with award dates of June 16, 2010, reported 12 jobs
retained or created during the December 31, 2009, reporting period. Another recipient
report with an award date of January 8, 2010, reported 11 jobs retained or created during
the December 31, 2009, reporting period. However, OMB M-10-08 states that the
reports with award dates after the end of the reporting period for which recipients have
reported jobs retained or created are considered discrepancies. Therefore, recipients
should not have reported jobs retained or created for these awards during the
December 31, 2009, reporting period.

Because DoD did not fully implement an internal control structure over recipient reported
data, the reports contained discrepancies in key data fields, which increased the
likelihood that reported data on DoD Recovery Act awards might have been inaccurate.
Therefore, DoD should establish a data quality plan that clearly outlines the Recovery
Act data review process to ensure that material omissions and significant reporting errors
are identified and corrected. In addition, DoD should also establish procedures specific
to recipients reporting for grants and cooperative agreements.




5
 The Air Force uses two systems to write contracts. Therefore, we totaled the reports with discrepancies
for the two Air Force systems (580 + 713 = 1293). For further information about discrepancies, see
Appendix C.


                                                    9
DoD Did Not Establish Procedures for Monitoring
Contracting and Fiscal Officer Data Review Processes
DoD identified the roles and responsibilities of key personnel involved in the Recovery
Act and specifically identified contracting officers as being responsible for performing
data quality reviews. However, DoD’s controls did not include procedures for
monitoring the contracting officers’ data review processes. See Appendix B for a chart
showing DoD key personnel involved in the recipient reporting process.

OMB Circular A-123 requires management to develop and implement monitoring
procedures to ensure the effectiveness and efficiency of operations. Further, the guidance
requires management to conduct periodic reviews, reconciliations, or comparisons of data
as part of the regular assigned duties of personnel. Management should integrate periodic
assessments as part of their continuous monitoring of internal controls. However, DoD
                               did not have specific procedures for monitoring the
    Because management         contracting and fiscal officers’ data review processes.
  did not have procedures
  established…DoD could        Office of the Under Secretary of Defense (Comptroller)
  not ensure that recipient    (OUSD[C]) and DoD Component personnel described the
     reports were free of      methods they used to monitor the data review processes.
  discrepancies in key data They stated that they conduct high-level reviews of the
            fields.            recipient reports at headquarters because DoD delegated
                               review of the reports to the contracting and fiscal officers.
The high-level reviews are limited to the review of data extracts obtained from
http://www.federalreporting.gov. However, OUSD(C) and DoD Component personnel
stated that they did not have documented procedures for conducting the reviews.

In addition, DoD did not establish procedures for conducting periodic assessments to
determine data review processes. DPAP officials stated that DoD did not establish
procedures because DoD relied on control procedures provided by the RATB and the
DoD OIG periodic reviews (audits). However, DoD OIG periodic reviews (audits) occur
after the recipients submit their reports to http://www.federalreporting.gov and
OMB M-10-08 requires DoD to continuously evaluate recipient reporting.

Because management did not have procedures established to monitor or to perform
periodic assessments of the data review processes, DoD could not ensure that recipient
reports were free of discrepancies in key data fields. Therefore, DoD should establish
procedures for monitoring contracting and fiscal officer data review processes and for
performing periodic assessments to ensure that recipient data is accurate and complete.




                                            10
Conclusion
DoD did not fully implement an internal control structure over recipient reporting of
Recovery Act funds. As a result, 1,943 recipient reports with a total award amount of
                                      $1.7 billion contained 2,914 discrepancies on key
      As a result, 1,943 recipient    award information. Therefore, the data did not
  reports with a total award amount provide transparency and accountability of
    of $1.7 billion contained 2,914   expenditures so that the public will know how,
     discrepancies on key award       when, and where DoD Recovery Act funds were
              information.            spent. DoD should establish a plan for
                                      performing data quality reviews and for
monitoring the review processes to comply with Public Law 111-5 and OMB
requirements.

Management Comments on the Finding and Our
Response
Deputy Under Secretary of Defense (Resource Issues)
Comments on Transparency and Accountability of DoD
Recovery Act Funds
The Director, Resource Issues, provided comments on the finding for the Deputy Under
Secretary of Defense and requested we reconsider the statement, “DoD did not provide
transparency and accountability of expenditures so the public will know how, when, and
where DoD Recovery Act funds were spent.” The Director pointed out that during the
period ending December 31, 2009, DoD issued over 3,000 contracts and grants that were
subject to the reporting requirements. Only 21 of the recipients did not comply with
these requirements. The Director further stated that in addition to the data available on
Recovery.gov, the DoD maintains a Web site (http://www.defense.gov/recovery) where
the public is provided with information regarding Department expenditures of the
appropriated ARRA funding.

Our Response
We believe the Director’s statement is accurate: “During the period ending
December 31, 2009, DoD issued over 3,000 contracts and grants that were subject to the
reporting requirements. Only 21 of the recipients did not comply with these
requirements.” However, the statement identifies only the number of recipients that
submitted reports during the period ending December 31, 2009. As stated in the report,
1,943 recipient reports, with a total award amount of $1.7 billion, contained
2,914 discrepancies on key award information. Based on the significant errors and
discrepancies we identified, transparency and accountability were not achieved.

Deputy Under Secretary of Defense (Resource Issues)
Comments on Treasury Account Symbol Discrepancies
The Director, Resource Issues, provided comments on the finding for the Deputy Under
Secretary of Defense. The Director provided clarification regarding the statement,


                                           11
“Because recipients did not use the correct TAS, there is increased risk that the funds
may be misappropriated or charged to another Federal agency.” The Director stated that
any errors in reporting do not reflect the risk of misappropriation or improper transfer of
funds to another agency.

Our Response
We considered the Director’s comments when preparing the final report. We reviewed
the wording and changed “misappropriated” to “misrepresented”.

Recommendations, Management Comments, and Our
Response
We recommend that the Deputy Under Secretary of Defense (Resource Issues):

1. Establish a quality assurance plan specific to recipient reporting, which includes
monitoring procedures to help ensure that recipient data are reported completely,
accurately, and timely, and that material omissions and significant reporting errors
are identified and corrected as stated in the Office of Management and Budget
Memorandum M-10-08.

Deputy Under Secretary of Defense (Resource Issues)
Comments
The Director, Resource Issues, responded for the Deputy Under Secretary of Defense.
The Director agreed with the spirit and intent of the recommendation and stated that DoD
has taken significant steps to improve the data quality review process. DoD will develop
a quality assurance plan which will document and establish policies and procedures for
monitoring recipient data. The Director, Resource Issues, stated that all actions will be
completed by March 15, 2011, prior to the next reporting period that begins April 1,
2011.

2. Establish policies and procedures for personnel performing quality control
reviews and monitoring contracting and fiscal officer data review processes as
required by Office of Management and Budget Memorandum M-10-08.

Deputy Under Secretary of Defense (Resource Issues)
Comments
The Director, Resource Issues, responded for the Deputy Under Secretary of Defense.
The Director agreed with the spirit and intent of the recommendation. The Director,
Resource Issues, stated that DoD’s quality assurance plan will document and establish
policies and procedures for personnel performing quality control reviews and monitoring
data. The Director, Resource Issues, stated that all actions will be completed by
March 15, 2011, prior to the next reporting period that begins April 1, 2011.




                                            12
3. Implement periodic assessments of the DoD data quality review processes to
evaluate, on an on-going basis, recipient efforts to meet Recovery Act and OMB
reporting requirements as stated in OMB Memorandum M-10-08.

Deputy Under Secretary of Defense (Resource Issues)
Comments
The Director, Resource Issues, responded for the Deputy Under Secretary of Defense.
The Director agreed with the spirit and intent of the recommendation. The Director,
Resource Issues, stated that DoD will update the quarterly risk assessment plans to
include assessments of the data quality review process. The Director, Resource Issues,
stated that all actions will be completed by March 15, 2011, prior to the next reporting
period that begins April 1, 2011.

Our Response
The Director, Resource Issues, comments on Recommendations 1, 2, and 3 were
responsive, and no further comments are required.




                                            13
Appendix A. Scope and Methodology of
Audit
We conducted this performance audit from March 2010 through December 2010 in
accordance with generally accepted government auditing standards except for fieldwork
auditing standards for identifying investigations and assessing fraud risk. We did not
follow these two standards because of time limitations for planning and executing this
audit, and the unique nature of the data quality review.

Generally accepted government auditing standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
finding and conclusions based on our audit objectives. Omitting the procedures
described above did not limit our ability to conclude on the audit objective to determine
whether DoD had fully implemented an internal control structure to ensure recipient data
are reported completely, accurately, and in a timely manner, and that any material
omissions and significant errors are identified and corrected. The evidence we obtained
during our audit provides a reasonable basis for our findings and conclusions.

We developed questionnaires based on Public Law 111-5 and OMB pertinent guidance.
We then submitted the questionnaires to the Under Secretary of Defense (Comptroller)
and requested that Comptroller personnel forward them to the appropriate points of
contact for response. In addition, we met with OUSD(C) and DoD component personnel,
which included Office of the Secretary of Defense; Office of the Deputy Assistant
Secretary of the Army (Procurement); Army National Guard Bureau; U.S. Army Corps of
Engineers – Military Programs; Army Contracting Command; the Naval Facilities
Engineering Command; Office of the Deputy Assistant Secretary of the Air Force
(Contracting)/Assistant Secretary (Acquisition); Office of the Director Defense Research
and Engineering; and the Defense Logistics Agency, to understand their internal controls
and processes for reviewing Recovery Act recipient reported data. We also obtained and
reviewed DoD’s responses to our questionnaires as well as all documentation provided
with their responses. In addition, we reviewed DoD guidance for reviewing recipient
reports to determine whether the guidance contained the reporting and data quality review
requirements outlined in OMB guidance.

For contracts and grants and cooperative agreements, we requested and obtained
Recovery Act award data from the Department of the Army, the Department of the Air
Force, and the Army National Guard Bureau. We did not obtain the requested data from
the Department of the Navy because it did not have an internal system that could provide
the necessary data to conduct our analysis. We compared the data reported by recipients
at http://www.federalreporting.gov for the quarter ending December 31, 2009, with the
data obtained from DoD to verify whether the data contained discrepancies, including
material omissions and significant errors.




                                           14
Use of Computer-Processed Data
We did not rely on computer-processed data or the validity or accuracy of computer-
processed data in the performance of this audit. Instead, we compared the data recipients
reported at http://www.federalreporting.gov against the data obtained from DoD internal
systems to determine whether DoD internal controls for recipient reporting were effective
in identifying data discrepancies, including material omissions and significant errors. We
identified discrepancies during the performance of this audit; however, we did not
validate the data by tracing it to source documents to determine its validity or accuracy
because it was outside the scope of our audit.

Prior Coverage of Recovery Act Data Review Process
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DoD
projects funded by the Recovery Act. You can access the full list of unrestricted reports
at http://www.recovery.gov/acccountablity.

GAO
GAO Report No. 10-581, “Recovery Act—Increasing the Public’s Understanding of
What Funds Are Being Spent on and What Outcomes Are Expected,” May 2010
GAO Report No. 10-224T, “Recovery Act—Recipient Reported Jobs Data Provide Some
Insight into Use of Recovery Act Funding, but Data Quality and Reporting Issues Need
Attention,” November 19, 2009
GAO Report No. 09-672T, “Recovery Act—GAO's Efforts to Work with the
Accountability Community to Help Ensure Effective and Efficient Oversight,” May 5,
2009
DoD IG
DoD IG Memorandum No. D-2010-RAM-002, “Results From the Audit of DoD’s
American Recovery and Reinvestment Act of 2009 Initial Data Quality Review
Implementation,” November 3, 2009
DoD IG Memorandum No. D-2010-RAM-001, “US Army Corps of Engineer Data
Quality Review Process for Civil Works Programs,” October 30, 2009
DoD IG Memorandum No. D-2009-RAM-001, “Results from Assessment of DoD's Plans
for Implementing the Requirements of the American Recovery and Reinvestment Act of
2009,” June 23, 2009




                                            15
Appendix B. Key Personnel Involved in the
Oversight of DoD Recipient Reporting




                     16
Appendix C. Discrepancies Between Data
from DoD Systems and Recipient Reported
Data at http://www.federalreporting.gov
                                             Army                                      Air Force

                                                                                Contracts

    Key Data Fields               Contracts          Grants            CBIS1             EZ Query1            Grants           Total

Activity Code                              228              -2                 236                  193                -             657

Award Amount                                97              21                   94                 154                1             367

Award Date                                 270              41                 258                  608                2            1,179

Award Number                                  0              3                    1                    0               1               5

Award Type                                     -             0                     -                    -              3               3
Awarding Agency
Code                                           -              -                  72                     -              -              72
Catalogue of Federal
Domestic Assistance –
Grants                                         -             2                     -                    -              3               5

Funding Agency Code                        156                -                  67                     -              -             223
Government
Contracting Office
Code - Contracts                            20                -                  21                   18               -              59

Order Number                                18                -                  14                   10               -              42
Program Source Code
(Treasury Account
Symbol)                                     74               1                 128                    99               0             302

 Total Discrepancies3                      863              68                 891                1,082              10             2,914
Total Reports with
Discrepancies                              602              44                 580                  713                4            1,943
Total Reports
Reviewed                                   901              58                 998                  942                6            2,905

1
We separately listed discrepancies identified in each system because the Air Force uses two systems to write contracts (Contract
Business Intelligence Service [CBIS] and EZ Query).
2
 “-” indicates a data field for which a comparison could not be made because a data field in DoD’s system did not contain data or
contained data that was not comparable to data in http://www.federalreporting.gov.
3
 Total discrepancies may exceed “Total Reports with Discrepancies” and “Total Reports Reviewed” because a record may have
multiple data field discrepancies.




                                                                  17
Deputy Under Secretary of Defense (Resource Issues)
Comments




                   Click to add JPEG file




                                  18
                           Final Report 

                            Reference





                         Revised 





Click to add JPEG file




               19
20
